I N T H E S U P R E M E C O U R T O F T H E U NI T E D S T A T E S

P E R KI N S, A LI C E, E T VI R
P etiti o n er
vs.

N o:

2 0- 1 3 8 8

C O M MI S SI O N E R O F I N T E R N A L R E V E N U E
W AI V E R
T h e G o v er n m e nt h er e b y w ai v es its ri g ht t o fil e a r es p o ns e t o t h e p etiti o n i n t his c as e,
u nl ess r e q u est e d t o d o s o b y t h e C o urt.

E LI Z A B E T H B. P R E L O G A R
A cti n g S oli cit or G e n er al
C o u ns el of R e c or d
A pril 0 9, 2 0 2 1
c c:
M AR G ARET
L A W O F FI C
M U RP H Y
5 3 5 4 B RI E R
H A M B U R G,

A. M U R P H Y
E O F M A R G A R E T A.
C LI F F D RI V E
N Y 14075

G A R Y D. B O R E K
9 9 VI C T O RI A B O U L E V A R D
C H E E K T O W A G A, N Y 1 4 2 2 5

